TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Earned Income Tax Credit Program Has
                 Made Advances; However, Alternatives to
                Traditional Compliance Methods Are Needed
                        to Stop Billions of Dollars in
                            Erroneous Payments



                                       December 31, 2008

                              Reference Number: 2009-40-024




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(a) = Law Enforcement Criteria
 2(d) = Law Enforcement Technique(s)
 2(e) = Law Enforcement Procedure(s)
 2(f) = Risk Circumvention of Agency Regulation or Statue



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           December 31, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Earned Income Tax Credit Program Has
                              Made Advances; However, Alternatives to Traditional Compliance
                              Methods Are Needed to Stop Billions of Dollars in Erroneous
                              Payments (Audit # 200740029)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 progress in improving administration of the Earned Income Tax Credit (EITC) Program since
 Fiscal Year 2003. Our review included assessing oversight of the Program and efforts taken to
 improve compliance with and participation in the Program. This review was part of the Treasury
 Inspector General for Tax Administration Fiscal Year 2007 Annual Audit Plan and relates to the
 Fiscal Year 2007 Major Management Challenge of addressing erroneous and improper
 payments.

 Impact on the Taxpayer
 The IRS has implemented a number of initiatives designed to 1) educate taxpayers on the EITC
 requirements and assist them in determining EITC eligibility, 2) provide information and
 guidance to tax preparers, and 3) improve its examination processes to reduce burden on
 taxpayers. In addition, the IRS has successfully developed a number of processes to identify
 erroneous EITC payments prior to issuance. However, because compliance resources are limited
 and alternatives to traditional compliance methods have not been developed, the majority of the
 potentially erroneous EITC claims identified continue to be paid in error. The IRS reports
 $10 billion to $12 billion annually in erroneous EITC payments.
                 The Earned Income Tax Credit Program Has Made Advances;
                 However, Alternatives to Traditional Compliance Methods Are
                   Needed to Stop Billions of Dollars in Erroneous Payments



Response
IRS management agreed with all of our recommendations. The IRS will continue its ongoing
efforts to identify new alternatives to effectively expand its treatment of EITC errors while
protecting taxpayer rights and minimizing taxpayer burden. As part of these efforts,
management will conduct a study of Federal Case Registry information to determine its accuracy
and applicability for exercising existing math error authority to deny the EITC during upfront
processing of the tax return. The IRS will communicate any relevant results from its study to the
Assistant Secretary of the Treasury for Tax Policy for his or her consideration. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                4
                       The Earned Income Tax Credit Program Has Made Advances;
                       However, Alternatives to Traditional Compliance Methods Are
                         Needed to Stop Billions of Dollars in Erroneous Payments




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Although Some Improvements Have Been Made in the Administration
          of the Earned Income Tax Credit Program, a Process to Measure Progress
          in Meeting Program Goals Is Still Needed ...................................................Page 4
          Alternatives to Traditional Compliance Methods Are Needed to Reduce
          the Billions of Dollars in Identified Erroneous Earned Income Tax Credit
          Payments .......................................................................................................Page 11
                    Recommendation 1:........................................................Page 13

                    Recommendation 2:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Prior Audit Report Recommendations.................................Page 19
          Appendix V – Glossary of Terms .................................................................Page 28
          Appendix VI – Management’s Response to the Draft Report ......................Page 30
       The Earned Income Tax Credit Program Has Made Advances;
       However, Alternatives to Traditional Compliance Methods Are
         Needed to Stop Billions of Dollars in Erroneous Payments




                      Abbreviations

AEIC            Advance Earned Income Credit
EIC             Earned Income Credit
EITC            Earned Income Tax Credit
FY              Fiscal Year
IRS             Internal Revenue Service
SSN             Social Security Number
TY              Tax Year
                    The Earned Income Tax Credit Program Has Made Advances;
                    However, Alternatives to Traditional Compliance Methods Are
                      Needed to Stop Billions of Dollars in Erroneous Payments




                                            Background

Created in 1975, 1 the Earned Income Tax Credit (EITC) is a refundable credit used to offset the
impact of Social Security taxes on low-income families and to encourage them to seek
employment rather than welfare. The amount of the
Credit individuals receive depends on earned                The number of taxpayers
income, 2 the number of qualifying children, and          claiming the EITC grew from
filing status.                                           6.2 million in Tax Year 1975 to
                                                                     22.4 million in Tax Year 2006.
The Internal Revenue Service (IRS) is charged with         During this period, amounts
administration of the EITC, which includes               claimed rose from $1.2 billion to
developing strategies to improve the EITC Program,                 $43.7 billion.
managing the Program’s outcomes, and coordinating
activities of support functions within the IRS. In
2003, the IRS established a centralized function, the EITC Program Office, to oversee
administration of the Program. The mission of the Program Office is to ensure that all eligible
individuals receive the EITC, while reducing the number of erroneous EITC claims. To
accomplish its mission, the EITC Program Office coordinates with multiple functions within the
IRS, including those involving tax return processing, communication and media relations,
electronic tax administration, and compliance.
Although participation and dollars claimed have continued to increase, the EITC Program
continues to be vulnerable to a high rate of noncompliance, including incorrect or erroneous
claims for the EITC caused by taxpayer error and resulting from fraud. For example:
    •   In February 2002, the IRS estimated that between $8.5 billion and $9.9 billion
        (27 percent to 32 percent) of the $31.3 billion in EITC claims made by taxpayers in Tax
        Year (TY) 1999 should not have been paid. 3
    •   In 2005, the IRS estimated that between $9.6 billion and $11.4 billion (23 percent to
        28 percent) of the $41.3 billion in EITC claims paid for TY 2004 returns were paid in
        error. 4




1
  All dates in this report are calendar year unless otherwise noted.
2
  See Appendix V for a glossary of terms.
3
  The TY 1999 compliance rate does not account for payments identified and stopped by the IRS as part of its
compliance efforts.
4
  Estimates for TY 2004 include claims paid in error and a factor for erroneous payments identified and recovered
by the IRS, as well as a factor for the impact of the TY 2002 tax law changes.
                                                                                                           Page 1
                    The Earned Income Tax Credit Program Has Made Advances;
                    However, Alternatives to Traditional Compliance Methods Are
                      Needed to Stop Billions of Dollars in Erroneous Payments



Put simply, the total Federal income tax paid by 1.5 million taxpayers in TY 2006 (roughly the
population of Phoenix, Arizona) was used to fund erroneous EITC payments.

The IRS continues to face challenges in improving the EITC Program
EITC eligibility rules are complicated and cause taxpayers to make errors while attempting to
interpret and apply the tax laws to their individual situations. An analysis performed by the
National Taxpayer Advocate 5 identified that many low-income taxpayers struggle to determine
their eligibility for the EITC. Some taxpayers lack an understanding of the eligibility issues
related to family status, such as the dependency exemption and Head of Household filing status.
In addition, the changing population of taxpayers who claim the EITC increases the difficulty the
IRS faces in improving EITC compliance. The IRS has conducted numerous studies showing
how taxpayers move in and out of the EITC Program and has plans to conduct more. Figure 1
shows that approximately one-third of EITC claimants each year are intermittent 6 or first-time
claimants.
                   Figure 1: Movement of Taxpayers in the EITC Program
                              (Processing Years 2000 - 2006) 7



                                                                  Continual Filers
                             Intermittent Filers                       20%
                                   29%


                                                                         First-Time Filers
                                                                                8%




                                    Discontinued                  One-Time Filers
                                       Filers                         24%
                                        19%




                  Source: IRS study - Exploratory Trend Analysis of EITC TYs 1999 - 2005.




5
  National Taxpayer Advocate 2004 Annual Report to the Congress, issued December 2004.
6
  Some taxpayers claim the EITC in 1 year but not the next, then file and claim the Credit again at a later time.
7
  Discontinued Filers are taxpayers who had consistently claimed the EITC but who stopped filing a tax return or no
longer qualified for the EITC.
                                                                                                           Page 2
                The Earned Income Tax Credit Program Has Made Advances;
                However, Alternatives to Traditional Compliance Methods Are
                  Needed to Stop Billions of Dollars in Erroneous Payments



A large part of EITC compliance depends on the taxpayers’ understanding of the EITC eligibility
rules and how to properly claim the Credit. In programs with a stable population, compliance
should improve as more taxpayers become familiar with program rules. However, EITC rules
are frequently revised as a result of changes to the tax law. The ever-changing EITC population
and changes in eligibility requirements reduce the effectiveness of the IRS’ education and
outreach efforts because the IRS must continually educate new claimants.
This review was performed at the IRS Wage and Investment Division Headquarters in
Atlanta, Georgia, in the Office of Electronic Tax Administration and Refundable Tax Credits
during the period October 2007 through August 2008. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                      The Earned Income Tax Credit Program Has Made Advances;
                      However, Alternatives to Traditional Compliance Methods Are
                        Needed to Stop Billions of Dollars in Erroneous Payments




                                        Results of Review

Although Some Improvements Have Been Made in the Administration
of the Earned Income Tax Credit Program, a Process to Measure
Progress in Meeting Program Goals Is Still Needed
Since Fiscal Year (FY) 2003, the Treasury Inspector General for Tax Administration has
performed reviews to assess the IRS’ administration of the EITC Program. 8 IRS efforts have
resulted in some improved oversight and management of the EITC Program. As a result of a
FY 2003 assessment by the Office of Management and
Budget, the IRS established two long-term goals for          IRS efforts have resulted in
the Program:                                                   improved oversight and
                                                                           management of the EITC
1. Increasing Program participation.                                             Program.
2. Reducing erroneous payments.
These goals relate directly to the mission of the EITC Program Office. However, processes have
not been developed to consistently measure progress in meeting these goals, and methodologies
used to measure EITC compliance were inconsistent, resulting in the inability to compare yearly
results. Although the IRS does not have a process to consistently measure progress in increasing
participation, indicators show that improvements have been made. Specifically, the IRS has
implemented a number of initiatives that appear to have resulted in increases to the numbers of
1) taxpayers who claim the EITC from year to year and 2) new EITC claimants from 1 year to
the next.
In addition, the IRS has established a number of processes to identify and prevent the issuance of
erroneous EITC payments. However, resource constraints prevent the IRS from making any
significant impact on stopping the billions of dollars in erroneous payments identified by these
processes annually.

The IRS has initiated a number of actions to improve its ability to administer the
EITC Program
Since FY 2003, the IRS has initiated a number of actions that have improved its ability to
administer the EITC Program. These actions have resulted in increased oversight and
coordination and a more focused approach to improving participation and compliance. Actions
include:

8
    Appendix IV provides a list of these reports and associated recommendations.
                                                                                                    Page 4
                   The Earned Income Tax Credit Program Has Made Advances;
                   However, Alternatives to Traditional Compliance Methods Are
                     Needed to Stop Billions of Dollars in Erroneous Payments



    •   Developing a five-point EITC initiative in 2003 to improve service, fairness, and
        compliance with the EITC law. This initiative included reducing backlogs of EITC
        Program examinations, improving communication with taxpayers, increasing outreach
        efforts, enhancing compliance efforts, and testing a certification process for higher risk
        taxpayers.
    •   Establishing the EITC Program Office in 2003 and aligning the Office directly under the
        Commissioner, Wage and Investment Division. Direct reporting ensured that the
        Program received the emphasis needed to address its compliance problems and
        coordinated the oversight of many EITC activities under one executive. Activities
        include oversight of the EITC outreach efforts and compliance activities, such as the
        pre-refund audit program.
    •   Implementing Service Level Agreements between the EITC Program Office and its
        partner functions within the IRS to increase accountability for EITC activities performed
        by those organizations. These Agreements outline commitments agreed to with other
        functions within the IRS to assist in EITC activities.
    •   Developing a Concept of Operations that provides a roadmap of the IRS’ vision for the
        Program. The EITC Program Office regularly updates the Concept of Operations as new
        research and data are obtained and analyzed.
    •   Establishing long-term performance measures that reflect the Program’s anticipated
        outcomes over time: percentage of eligible taxpayers who file for the EITC and
        percentage of EITC claims paid in error.

The IRS had not established a consistent method to measure EITC participation
and compliance
The IRS had not developed a consistent method to quantify its progress in meeting its two
Program goals. The inability to measure progress in meeting these goals results from delays in
obtaining necessary data and inconsistent measurement methods. The IRS has since developed a
methodology that it believes will allow it to consistently measure its progress in meeting
Program goals once the needed data are available. The IRS plans to be able to report on Program
participation late in 2008 and reducing erroneous payments in 2009. Because we plan to
continue to monitor IRS efforts in developing these measurement processes, we made no
recommendations for this issue in this report.
In June 2003, we recommended that the Commissioner, Wage and Investment Division, establish
for the EITC Program long-term goals and related measures that reflect the Program’s
anticipated outcomes over time. 9 We also recommended that the IRS establish a consistent

9
 Opportunities Exist to Improve the Administration of the Earned Income Tax Credit (Reference
Number 2003-40-139, dated June 2003).
                                                                                                Page 5
                    The Earned Income Tax Credit Program Has Made Advances;
                    However, Alternatives to Traditional Compliance Methods Are
                      Needed to Stop Billions of Dollars in Erroneous Payments



method to measure progress toward meeting these goals. The IRS agreed with the need to
establish a process to measure EITC participation. However, the IRS disagreed with the need to
establish a process to measure EITC compliance because it believed that an effective one already
existed.
The Office of Management and Budget has raised similar concerns. It determined that the IRS’
measure for EITC compliance did not meet the requirements of the Government Performance
and Results Act of 1993 10 and stated that new measures were needed. The Office of
Management and Budget rated the EITC Program as ineffective because the EITC compliance
initiative failed to reduce erroneous EITC payments to acceptable levels.
Efforts have been initiated to measure progress in meeting Program goals. The IRS has
developed two methodologies in an attempt to measure participation. However, delays in
obtaining needed information have prevented the IRS from being able to evaluate which
methodology best portrays participation in the EITC Program. The IRS has since made
arrangements to receive the information that it believes is needed and anticipates being able to
                                       develop a process to measure the EITC participation rate
   Methodologies used to measure       by the end of 2008.
       EITC compliance were not
     consistent. However, IRS has       The compliance rate used by the IRS was calculated using
      plans in place to be able to      TY 1999 tax returns and has not been updated since 2002.
         consistently measure           Although the IRS has attempted to assess the level of
     compliance from year to year.      EITC compliance since 2002, the methodologies used
                                        were not consistent. Therefore, no comparison could be
                                        performed to assess whether improvements were made. In
2005, the IRS established the EITC improper payment rate, which is the percentage of EITC
payments paid in error. However, this rate is still not a current measure of EITC compliance
because the improper payment rate is also not based on current tax returns. Although the rate
was established in 2005, it was based on TY 2001 tax returns. In addition, the IRS’ current goal
for claims paid in error is not an actual rate based on more current tax returns; it is a forecasted
rate based on the TY 2001 improper payment rate.
Beginning in 2009, the IRS plans to be able to begin updating the rate of claims paid in error
annually. In 2007, the IRS began reviewing a stratified, randomly selected sample of individual
tax returns claiming the EITC as a component of its National Research Program. In 2009, the
IRS will use the results of the annual National Research Program reviews to update the rate for
claims paid in error. In addition, the IRS plans to update its comprehensive EITC compliance
study in 2012 using the first 3 consecutive years of National Research Program data. The IRS
believes that this will enable it to measure its success in reducing erroneous payments. The IRS
notes that after 2012, it should also be able to update its compliance study annually.

10
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 6
                                         The Earned Income Tax Credit Program Has Made Advances;
                                         However, Alternatives to Traditional Compliance Methods Are
                                           Needed to Stop Billions of Dollars in Erroneous Payments



Although the IRS is unable to measure the increase in EITC participation and the reduction in
erroneous payments, indicators show some increase in EITC participation and the development
of processes to successfully identify billions of dollars in potentially erroneous EITC payments.
Indicators show some increase in EITC participation
Analysis of two key indicators–the number of taxpayers who claim the EITC from year to year
and the number of new EITC claimants from 1 year to the next–has increased. As shown in
Figure 2, the number of taxpayers who claimed the EITC has grown steadily at an average rate of
approximately 1.8 percent per year.
                                         Figure 2: Growth in EITC Claimants (TYs 2002 - 2006)

                                         25




                                         24
             EITC Claimants (millions)




                                         23

                                                                                       22.4
                                                                             22.1

                                         22                         21.7
                                                         21.4


                                               20.9
                                         21




                                         20
                                               2002      2003      2004      2005      2006
                                                                  Tax Year




     Source: IRS EITC Fact Sheet TYs 2002 - 2006.

The number of new EITC claimants in the Program each year has also increased. These could be
taxpayers who have claimed the EITC in the past but had stopped claiming the Credit and then
began claiming it again, or taxpayers who have never claimed the EITC and are claiming it for
the first time (see Figure 3 11 ).




11
  Our analysis used TY 2002 as the base population of EITC claimants and compared claimant population to
subsequent years.
                                                                                                       Page 7
                    The Earned Income Tax Credit Program Has Made Advances;
                    However, Alternatives to Traditional Compliance Methods Are
                      Needed to Stop Billions of Dollars in Erroneous Payments



                        Figure 3: New EITC Claimants (TYs 2003 - 2006)

  Tax Year          Total EITC Claimants               New Claimants                Percentage of New
                          (millions)                     (millions)                    Claimants
     2003                    21.4                           6.9                          32.2%
     2004                      21.7                           6.9                          31.8%
     2005                      22.1                           7.0                          31.7%
     2006                      22.4                           7.2                          32.1%
Source: IRS EITC Fact Sheet TYs 2002 - 2006 and our analysis of EITC Claimant Files on the Treasury Inspector
General for Tax Administration Data Center Warehouse.

 The IRS recognizes that the EITC-eligible population is constantly changing and has developed a
 strategic research plan to gain a better understanding of taxpayers’ movement within the EITC
 Program. These projects will be useful in identifying new areas in which the IRS can focus its
 continued efforts to improve EITC participation. Projects include updating and analyzing trends
 for return characteristics and behavioral trends of EITC filers to determine why taxpayers move
 in and out of the EITC claimant population. Further, the IRS has initiated a number of actions to
 increase EITC participation, including:
     •   Partnering to conduct outreach with more than 300 coalitions, which represent hundreds
         of nonprofit organizations, financial institutions, and government agencies. These
         coalitions conduct their own local EITC outreach through direct mail and media efforts.
     •   Holding an annual National EITC Awareness Day to create national awareness of the
         EITC and educate the diverse EITC population. Actions include public appearances by
         members of Congress and key IRS executives to discuss the benefits of the EITC and
         focused assistance at IRS Taxpayer Assistance Centers.
     •   Improving information and tools available on the IRS web site (IRS.gov) to provide
         assistance to taxpayers, tax preparers, and the IRS EITC partners. For example, the IRS
         has updated the EITC Assistant, the EITC Electronic Toolkit for Tax Preparers, and the
         Electronic Toolkit for EITC Partners and has launched EITC Marketing Express.
     •   Providing key EITC Program information during annual Nationwide Tax Forums.
         Presentations were made to 14,800 tax preparers nationwide in 2007.
     •   Sending computer-generated notices proactively to taxpayers who file tax returns and
         appear to be eligible for the EITC but did not claim the Credit. For example, the IRS sent
         more than 650,000 notices based on information reported on TY 2006 returns.




                                                                                                        Page 8
                     The Earned Income Tax Credit Program Has Made Advances;
                     However, Alternatives to Traditional Compliance Methods Are
                       Needed to Stop Billions of Dollars in Erroneous Payments



           the taxpayer from receiving the EITC until the taxpayer can prove he or she is entitled to
           receive the Credit. Once the taxpayer provides the IRS Examination function with
           supporting documentation to prove that he or she is entitled to receive the EITC, the IRS
           will remove the recertification indicator from the taxpayer’s account and issue the EITC.
           The IRS refers to this process as “recertification.” These audits are conducted prior to
           payment of the EITC claim.
       •   Document Matching – Subsequent to the filing and processing of tax returns containing
           an EITC claim, the IRS matches third-party information documents to information
           reported on the tax return to identify unreported or underreported income that–if included
           on the tax return–would reduce the amount of EITC a taxpayer is entitled to.
 Implementation of the above enforcement tools has protected billions of dollars in EITC revenue.
 Figure 4 provides an analysis of EITC enforcement results.
                    Figure 4: EITC Enforcement Results (TYs 2002 - 2006)

      Enforcement
                            TY 2002            TY 2003            TY 2004           TY 2005            TY 2006
       Program

 Math Error 12                  699,277            624,590           515,890            460,316      Not Available 13

 EITC Audit
                                421,889            472,022           527,969            517,617            502,519
 Closures 14
 Document-
                          Not Available 15         228,028           324,419            364,020            394,217
 Matching Cases
 Total Revenue
                          $1.71 billion      $2.05 billion      $2.47 billion     $2.62 billion      $2.65 billion
 Protected
Source: IRS EITC Fact Sheet TYs 2001 - 2005 and EITC Compliance Fact Sheet FYs 2003 – 2007 as of
February 2008.




 12
    EITC withheld from claimant; includes decreases in the amount of EITC claimed as well as disallowance of the
 full EITC claim.
 13
    The TY 2006 results of the Math Error Program were not available from the IRS at the time we conducted our
 review.
 14
    Includes results for all EITC audits, including Dependent Database and EITC Recertification Audits closed as of
 February 2008.
 15
    TY 2003 (FY 2004) was the first year the IRS had a dedicated EITC Document-Matching Program. As a result,
 comparable statistics are not available for years prior to TY 2003.
                                                                                                           Page 10
                The Earned Income Tax Credit Program Has Made Advances;
                However, Alternatives to Traditional Compliance Methods Are
                  Needed to Stop Billions of Dollars in Erroneous Payments



       information to determine its accuracy and applicability for exercising existing math error
       authority to deny the EITC during upfront processing of the tax return.
Recommendation 2: Work with the Assistant Secretary of the Treasury for Tax Policy to
obtain the authority necessary to implement alternative processes to adjust erroneous EITC
claims for which data show that the taxpayer does not meet the EITC qualifying-child
relationship and/or residency tests.
       Management’s Response: IRS management agreed with this recommendation and
       will communicate any relevant results from their corrective action to Recommendation 1
       to the Assistant Secretary of the Treasury for Tax Policy for his or her consideration.




                                                                                          Page 14
                   The Earned Income Tax Credit Program Has Made Advances;
                   However, Alternatives to Traditional Compliance Methods Are
                     Needed to Stop Billions of Dollars in Erroneous Payments



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall audit objective was to assess the IRS’ progress in improving administration of the
EITC Program since FY 2003. Our review included assessing oversight of the Program and
efforts taken to improve compliance with and participation in the Program. To accomplish this
objective, we:
I.      Identified IRS initiatives and legislative changes implemented during FYs 2003 through
        2007 to increase the number of eligible taxpayers who claim the Credit and reduce or
        prevent EITC overclaims. 1 We met with the Director of the EITC Program to discuss
        efforts implemented; reviewed various EITC and Wage and Investment Division
        performance reports, the IRS EITC Research Plans for FYs 2005 through 2007, and the
        2007 EITC Communications Plan; and determined whether the IRS had successfully
        implemented new EITC programs and tools described in its March 2004 Concept of
        Operations document.
II.     Evaluated the IRS’ ability to significantly improve administration of the EITC Program
        as a result of Program changes, implementation of initiatives identified in Step I., and
        changes to the EITC Program Office.
        A. Determined the progress the IRS has made in establishing a consistent method to
           measure EITC participation as recommended in a June 2003 Treasury Inspector
           General for Tax Administration report. 2
        B. Evaluated the IRS’ performance during FYs 2003 through 2007 to determine whether
           1) participation in the EITC improved and 2) EITC overclaims were reduced by
           analyzing available IRS data for participation and overclaims. We were unable to
           validate the reliability of the IRS data. Information needed to recreate the IRS studies
           used to determine estimated participation rates and compliance rates was not
           available.
        C. Determined whether initiatives identified in Step I. affected participation and
           compliance by performing trend analysis using EITC data from the IRS and the
           Treasury Inspector General for Tax Administration Data Center Warehouse EITC
           Claimant File. We verified a judgmental sample of seven records in the Claimant
           File, one for each processing year and tax year from 2003 through 2007, to

1
 See Appendix V for a glossary of terms.
2
 Opportunities Exist to Improve the Administration of the Earned Income Tax Credit (Reference
Number 2003-40-139, dated June 2003).
                                                                                                    Page 15
         The Earned Income Tax Credit Program Has Made Advances;
         However, Alternatives to Traditional Compliance Methods Are
           Needed to Stop Billions of Dollars in Erroneous Payments



   information in the IRS Integrated Data Retrieval System to ensure that the data had
   been pulled correctly when the File was created. We were unable to validate the
   reliability of the IRS data. Information needed to recreate the IRS studies used to
   determine estimated participation rates and compliance rates was not available.
D. Identified barriers the IRS faces in being able to make significant improvements to
   compliance with the EITC.




                                                                                 Page 16
                The Earned Income Tax Credit Program Has Made Advances;
                However, Alternatives to Traditional Compliance Methods Are
                  Needed to Stop Billions of Dollars in Erroneous Payments



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann Baiza, Audit Manager
Karen Fulte, Lead Auditor
Linda Bryant, Senior Auditor
Sharla Robinson, Senior Auditor
Sandra L. Hinton, Auditor
Bonnie Shanks, Auditor




                                                                                    Page 17
                The Earned Income Tax Credit Program Has Made Advances;
                However, Alternatives to Traditional Compliance Methods Are
                  Needed to Stop Billions of Dollars in Erroneous Payments



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Earned Income Tax, Wage and Investment Division SE:W:ETARC:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 18
                      The Earned Income Tax Credit Program Has Made Advances;
                      However, Alternatives to Traditional Compliance Methods Are
                        Needed to Stop Billions of Dollars in Erroneous Payments



                                                                                  Appendix IV

                   Prior Audit Report Recommendations

Below are brief synopses of the Treasury Inspector General for Tax Administration reports
issued during FYs 2003 through 2007 that addressed management and oversight of the EITC
Program as well as the performance of individual EITC compliance programs. The IRS agreed
to take corrective action on the recommendations listed below except where noted.
Not All Available Information Was Considered When Examining Tax Returns at the
Austin Campus During the Fiscal Year 2000 Earned Income Credit Initiative
(Reference Number 2003-40-037, dated December 2002). The overall objective of the review
was to determine whether employees at the IRS Austin, Texas, Campus 1 appropriately closed
correspondence examinations and considered available systemic information, specifically where
it relates to the self-employment income reported by taxpayers and the EITC available to them.
The Treasury Inspector General for Tax Administration received a Congressional inquiry
regarding an allegation made by IRS employees that the Compliance function at the Austin
Campus incorrectly closed examination cases during the FY 2000 EITC Initiative. Tax returns
examined as part of this Initiative were closed inappropriately without the IRS considering
systemic information to verify taxpayers’ self-employment income. We made one
recommendation:
•     Recommendation 1 – The IRS should consult with the Office of Chief Counsel to determine
      the effect of the disallowance of taxpayers’ self-employment income and Social Security
      quarter credits and whether the IRS’ actions violated the taxpayers’ rights or entitlements.
Not All Available Information Was Considered When Self-Employment Income Was
Examined During the Fiscal Year 2000 Earned Income Tax Credit Initiative
(Reference Number 2003-40-135, dated June 2003). The overall objective of the review was to
determine whether IRS employees appropriately closed correspondence examinations and
considered available systemic information, specifically where it related to the self-employment
income reported by taxpayers and the EITC available to them. This review was a continuation of
our work that began with an allegation made by IRS employees that the Correspondence
Examination function at the Austin Campus inappropriately closed correspondence examination
cases during the FY 2000 EITC Initiative. We found that taxpayer accounts were adjusted
without consideration of all available systemic information and that the campuses could have
expended correspondence examination resources more effectively. We made two
recommendations:


1
    See Appendix V for a glossary of terms.
                                                                                           Page 19
                    The Earned Income Tax Credit Program Has Made Advances;
                    However, Alternatives to Traditional Compliance Methods Are
                      Needed to Stop Billions of Dollars in Erroneous Payments



•     Recommendation 1 – The IRS should consult with the IRS’ Office of Chief Counsel to
      determine the effect on taxpayers’ rights and entitlements when valid self-employment
      income was disallowed for some of the taxpayers examined under the FY 2000 EITC
      Initiative.
•     Recommendation 2 – The IRS should ensure that IRS campuses properly research and
      classify tax returns for all future EITC initiatives, especially for those tax returns that cannot
      be electronically screened.
Opportunities Exist to Improve the Administration of the Earned Income Tax Credit
(Reference Number 2003-40-139, dated June 2003). The overall objective of the review was
to assess the IRS’ progress in improving administration of the EITC Program since
September 30, 2000. We made two recommendations to improve administration of the Program:
•     Recommendation 1 – To help measure the success of the Program, the IRS should establish
      long-term goals and related measures for the EITC Program that reflect the Program’s
      anticipated outcomes over time.
•     Recommendation 2 – To help measure the success of the Program, the IRS should establish a
      consistent method to measure progress toward its long-term goals. The method should
      include an assessment of the frequency with which the measures are computed.
Taxpayers Were Assessed Additional Tax for Advance Earned Income Credit Payments Not
Received (Reference Number 2003-40-126, dated June 2003). The overall objective of the
review was to determine whether the IRS had reasonable assurance during tax return processing
that the Advance Earned Income Credit (AEIC) payments reported by taxpayers were correct.
The AEIC allows employees who are eligible for the EITC to receive a portion of that credit in
advance with their pay during the year. These taxpayers are required to file a Federal tax return
and report the AEIC payments as additional tax, which is offset by the EITC that they might be
entitled to receive. We made one recommendation:
•     Recommendation 1 – To help improve the processing of the AEIC, the IRS should establish
      procedures to ensure the reported AEIC payment amounts are reconciled with the Form W-2 2
      amounts and correctly input during processing of individual income tax returns.
The Selection of Earned Income Tax Credit Returns for Examination Can Be Improved to
Further Prevent Erroneous Payments (Reference Number 2004-40-004, dated October 2003).
The overall objective of the review was to determine whether the IRS’ process for selecting
EITC cases for examination is providing the best effect on compliance and fairness to taxpayers.
Specifically, we determined whether the Dependent Database examination case selection process
for EITC returns results in the greatest benefit at the least cost (cost-benefit) while ensuring that
taxpayers are treated fairly and uniformly under the law. The IRS has a good process for

2
    Wage and Income Statement (Form W-2).
                                                                                                 Page 20
                 The Earned Income Tax Credit Program Has Made Advances;
                 However, Alternatives to Traditional Compliance Methods Are
                   Needed to Stop Billions of Dollars in Erroneous Payments



evaluating the results of the Dependent Database case selection process that allows for necessary
adjustments to be made. In addition, the types of returns selected for examination through the
Dependent Database process are representative of taxpayers who claim the EITC based on
qualifying children. However, the IRS cannot determine if the selection process ensures that
resources are being used to provide the greatest cost-benefit because it does not use cost data and
yield in the evaluation of the case selection process. We made two recommendations:
•   Recommendation 1 – To improve the Dependent Database case selection process, the IRS
    should complete an analysis of the historical Dependent Database examination data to
    determine if there is a relationship among the direct examination time, rules identified, and
    disposition of examinations. If there is a relationship, cost-benefit data should be
    incorporated into the criteria used in the rule score for the Dependent Database case selection
    process. Absent a relationship, an average cost of examinations should be used to conduct a
    cost-benefit analysis to incorporate into the rule score.
•   Recommendation 2 – The IRS should incorporate a cost-benefit analysis into the Dependent
    Database Risk-Based Scoring Model planned for implementation in January 2004.
Management Controls Over the Proof of Concept Test of Earned Income Tax Credit
Certification Need to Be Improved (Reference Number 2004-40-032, dated December 2003).
The overall objective of the review was to determine whether the IRS has an effective process to
test its Concept of Operations for EITC certification and prepare for implementation of the Proof
of Concept Test of EITC certification (the Test) for qualifying child residency requirements.
Because of changes in the scope of the Test, the scope of this audit was limited to an evaluation
of the IRS’ general planning and preparations to implement the Test. A Task Force had studied
how the IRS administers the EITC, with emphasis on improving EITC compliance. The Task
Force recommended requiring certain types of taxpayers identified as at high risk of making
erroneous EITC claims to verify that the children claimed for EITC purposes satisfy the Credit’s
relationship and residency requirements before the Credit is allowed. The IRS tested the concept
of EITC certification for residency during the 2004 Filing Season. We made one
recommendation:
•   Recommendation 1 – To improve program oversight, the IRS should strengthen the controls
    over the Proof of Concept Test of EITC certification to be able to effectively measure and
    analyze the success of the Test.
The Risk of Inaccurate Computer Changes Can Be Reduced in Future Tests of the Earned
Income Tax Credit (Reference Number 2004-40-089, dated April 2004). The overall objective
of the review was to determine whether the IRS had accurately updated all computer systems as
necessary for the 2004 EITC Proof of Concept Test (the Test) in a timely manner. The Test was
IRS’ first step toward implementing the future vision for administering the EITC that was
developed from recommendations made by a Task Force that examined the administration and


                                                                                           Page 21
                 The Earned Income Tax Credit Program Has Made Advances;
                 However, Alternatives to Traditional Compliance Methods Are
                   Needed to Stop Billions of Dollars in Erroneous Payments



complexity of the EITC. A number of computer systems and programs had to be revised to
implement the Test. We made three recommendations:
•   Recommendation 1 – To improve assurance that needed computer system changes are
    properly identified and accurately implemented, the IRS should work within the established
    guidelines to the extent possible when requesting necessary computer program changes
    related to the future vision of the EITC Program. While it may not be feasible to follow the
    full process for all changes, following as much of the process as possible will increase the
    assurance that requested computer system changes are programmed and implemented as
    intended.
•   Recommendation 2 – For those instances in which using the formal request for computer
    changes is not feasible, the IRS should work with the Modernization and Information
    Technology Services function to establish a process to document the communication of
    requested business requirements. The documentation should include a record of discussions
    and electronic mail in which system changes are informally discussed and agreed upon.
•   Recommendation 3 – To increase assurance that computer systems affected by future tests of
    the IRS’ vision for the EITC are operating as intended, the IRS should meet with the
    Modernization and Information Technology Services function as early as possible in
    Calendar Year 2004 to establish guidelines or milestones identifying when final system
    change requests will be received and programming completed for future anticipated EITC
    tests. This agreement should provide increased assurance that, if these milestones are met,
    there will be sufficient time for proper testing of system changes prior to implementation.
The Statistical Sampling Method Used in the Earned Income Tax Credit Proof of Concept
Test Appears Valid (Reference Number 2004-40-100, dated May 2004). The overall objective
of the review was to determine the usefulness of the Test in enabling the IRS to make decisions
regarding the future of its EITC Program. This audit focused on the statistical sampling
methodologies used to select the various samples for the Test. However, we did not assess the
selection criteria used for each sample. In addition, because the IRS had an independent third
party validate the design of the Certification of Qualifying Child Residency Requirements
(Certification) portion of the Test, our review of the Certification sample was limited to asking
the Treasury Inspector General for Tax Administration’s contracted statistician to review and
provide an overall assessment of the third-party report. Overall, the statistical sampling method
used to select the samples for the Test appears adequate and should provide reliable information
on which to base future decisions.
We made no recommendations in this report, but we did express some concerns with the sizes of
the sub-samples in the Certification portion of the Test and the impact that IRS contact with
taxpayers included in this portion could have on the Test results. While these concerns do not
affect the reliability of the samples, they could affect interpretation of the Test results. We
suggested that the IRS use caution when interpreting and relying upon these results.

                                                                                          Page 22
                 The Earned Income Tax Credit Program Has Made Advances;
                 However, Alternatives to Traditional Compliance Methods Are
                   Needed to Stop Billions of Dollars in Erroneous Payments



Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests Provide
Insight on Ways Taxpayer Burden Can Be Reduced in Future Tests (Reference
Number 2005-40-006, dated October 2004). The overall objective of the review was to
determine whether tax returns included in the IRS EITC concept tests were processed accurately.
This audit focused on the certification of the qualifying child residency and filing status tests.
The first test of the IRS’ certification concept involved 25,000 taxpayers who were asked to
validate that the children they claimed for the EITC had lived with them for more than 6 months
of Calendar Year 2003. The IRS’ test to validate the filing status asked 36,000 taxpayers filing
as Head of Household or Single to provide documentation supporting their filing status. We
made one recommendation to avoid unnecessarily burdening taxpayers during future EITC
concept tests:
•   Recommendation 1 – The IRS should incorporate information gathered from the FY 2004
    qualifying child residency and filing status concept tests into the planning and design of
    future EITC concept tests. Information related to increased or unnecessary burden should be
    used to ensure burden on taxpayers included in those tests is reduced as much as possible.
Application of the Earned Income Credit Two-Year Ban Could Be More Consistent, Accurate,
and Clear to Taxpayers (Reference Number 2005-40-015, dated December 2004). The overall
objective of the review was to determine whether the IRS effectively implemented the 2-year
ban. The ban is an important tool to help the IRS combat noncompliance. It not only encourages
compliance but also helps to conserve resources because the IRS can deny the EITC during the
ban period without conducting an examination. We made six recommendations to ensure the
ban is consistently and correctly used:
•   Recommendation 1 – To help ensure 2-year bans are consistently and correctly applied, the
    IRS should revise and distribute written ban guidelines that are clear, complete, and
    consistent with other IRS programs and procedures and accurately reflect the law.
•   Recommendation 2 – To help ensure 2-year bans are consistently and correctly applied, the
    IRS should consider using available data to identify EITC examination cases with apparent
    abuse before taxpayers are contacted. Examiners could review these cases, which might
    otherwise be worked completely by the automated system and propose a ban on the initial
    examination report when warranted.
•   Recommendation 3 – To help ensure 2-year bans are consistently and correctly applied, the
    IRS should make sure Compliance site management takes appropriate actions to help ensure
    all EITC examiners received adequate ban training, considered the ban on each EITC
    examination they work, and properly applied the ban guidelines.
•   Recommendation 4 – To help ensure the correct tax years are banned, the IRS should revise
    the ban programming to consider unfiled and late filed tax returns. We believe this could be
    accomplished, in part, by establishing a computer field that contains the first tax year after
    the ban expires. This field could be used to determine which tax returns should be banned
                                                                                           Page 23
                  The Earned Income Tax Credit Program Has Made Advances;
                  However, Alternatives to Traditional Compliance Methods Are
                    Needed to Stop Billions of Dollars in Erroneous Payments



    and which would require recertification. This field could also be used to help prevent actions
    subsequent to return processing that incorrectly allow the Earned Income Credit (EIC) for a
    banned tax year.
•   Recommendation 5 – To help taxpayers comply with 2-year ban requirements and help them
    avoid the ban, the IRS should revise the CP 79A 3 to emphasize that recertifying taxpayers
    must meet EITC requirements, warn of the likelihood of an examination and potential for
    another ban, and reflect the revised Information To Claim Earned Income Credit After
    Disallowance (Form 8862) requirements when claiming the EITC without qualifying
    children. The revised notice should also include the first tax year for which the taxpayer may
    again be able to claim the EITC. If ban programming is revised as suggested in
    Recommendation 4, this tax year information would be available.
•   Recommendation 6 – To help taxpayers comply with 2-year ban requirements and help them
    avoid the ban, the IRS should revise Form 8862 instructions and Earned Income Credit (EIC)
    (Publication 596) to emphasize that recertifying taxpayers must meet EITC requirements and
    to warn taxpayers about the ban. Also, the Commissioner, Wage and Investment Division,
    should revise Form 8862 instructions and the individual tax form instructions to explain (or
    provide a reference that explains) which years are banned.
The Earned Income Credit Recertification Program Continues to Experience Problems
(Reference Number 2005-40-039, dated March 2005). The overall objective of the review was
to evaluate the corrective actions taken by the IRS in response to the recommendations in our
December 2000 report on the IRS EIC Recertification Program. 4 Our December 2000 report
recommendations were intended to better safeguard Federal Government funds and help ensure
the protection of taxpayer rights with the least amount of burden to taxpayers. The March 2005
report includes an evaluation of the EIC Recertification Program as it relates to the effectiveness
of the corrective actions taken by the IRS in response to our prior report recommendations. The
conditions identified in our December 2000 report included not accurately removing
recertification indicators, not releasing suspended refunds in a timely manner, not clearly and
accurately communicating with taxpayers, and the need to change certain processing procedures
and the recertification criteria for certain taxpayers. We made six recommendations in our
March 2005 report to address these continuing conditions:
•   Recommendation 1 – To help ensure EIC recertification indicators on taxpayer accounts are
    accurate and taxpayers receive the EIC only when they are entitled to it, the IRS should
    develop clear, consistent, and comprehensive guidelines explaining when taxpayers are
    recertified and ensure guidelines are consistently followed. Recertification guidelines should
    explain the EIC Recertification Program complexities and nuances so managers, analysts,

3
 CP 79A is a computer-generated notice informing the taxpayer a ban was imposed.
4
 Improvements Are Needed in the Earned Income Credit Recertification Program (Reference Number 2001-40-030,
dated December 2000).
                                                                                                  Page 24
                  The Earned Income Tax Credit Program Has Made Advances;
                  However, Alternatives to Traditional Compliance Methods Are
                    Needed to Stop Billions of Dollars in Erroneous Payments



    programmers, and other individuals will be able to know exactly how the Program should be
    implemented. This will allow IRS employees to know what should be included in processing
    procedures, letters to taxpayers, tax publications, tax packages, and tax forms.
•   Recommendation 2 – To help ensure EIC recertification indicators on taxpayer accounts are
    accurate and taxpayers receive the EIC only when they are entitled to it, the IRS should
    correct existing EIC Recertification Program computer programming and ensure future
    requests for programming are of sufficient detail to ensure applicable IRS employees know
    exactly what is needed. The computer programming should be sufficiently tested to identify
    and correct potential problems prior to implementation. In addition, computer programming
    should ensure the EIC allowed for recertification cases reflects the approval of Examination
    function employees.
•   Recommendation 3 – To help ensure EIC recertification indicators on taxpayer accounts are
    accurate and taxpayers receive the EIC only when they are entitled to it, the IRS should
    ensure required quality reviews of non-examined closures are performed, the results are
    evaluated, and corrective actions are taken if appropriate. The IRS should change
    Examination function inventory reports to include counts for each type of non-examined
    closure for each EIC Program. These inventory reports should be evaluated to help ensure
    non-examined closures are appropriate.
•   Recommendation 4 – To further ensure taxpayers receive EIC refunds affected by the
    recertification process in a timely manner, the IRS should ensure Problem Correction Reports
    identify unresolved suspended refunds, issue procedures for completing actions for the
    Problem Correction Reports within specified time periods, and evaluate monthly summary
    reports to assure the Problem Correction Reports are worked in a timely manner.
•   Recommendation 5 – To further ensure taxpayers are properly and accurately notified about
    their involvement in the EIC Recertification Program and information provided to the
    taxpayers after filing their return is complete and understandable, the IRS should further
    revise communications to taxpayers to specifically inform them when they are recertified and
    notify potentially eligible taxpayers subject to recertification that they may still be entitled to
    the income-only EIC. The IRS should also revise communications to clearly explain why the
    EIC is not being allowed, that filing Form 8862 does not by itself recertify taxpayers, and
    that filing Form 8862 will likely result in an examination. Additionally, the IRS should
    include Form 8862 with the letters that deny the EIC because Form 8862 was not filed.
•   Recommendation 6 – To ensure taxpayers are not required to file unnecessary Forms 8862
    and taxpayers receive the EIC, the IRS should change computer programming, where
    appropriate, so electronically filed returns claiming the income-only EIC are not rejected
    because Forms 8862 are not filed.
The Earned Income Tax Credit Income Verification Test Was Properly Conducted
(Reference Number 2005-40-093, dated May 2005). The overall objective of the review was to
                                                                                              Page 25
                 The Earned Income Tax Credit Program Has Made Advances;
                 However, Alternatives to Traditional Compliance Methods Are
                   Needed to Stop Billions of Dollars in Erroneous Payments



determine whether the IRS properly classified, selected, and processed test cases and accurately
summarized and reported the results of the FY 2004 EITC income verification test. The income
verification test was conducted in conjunction with the IRS Automated Underreporter Program
and was designed to help the IRS identify ways to ensure taxpayers claiming the EITC properly
report their income. While the IRS accurately identified and selected cases for the income
verification test and processed those cases accurately and in a timely manner, we identified
inaccuracies in a new tool that the IRS created to monitor and track the interim results of the test.
However, these inaccuracies will not affect the final results of the current test or future tests. We
made no recommendations.
Administration of the Earned Income Tax Credit Program Has Improved, but Challenges
Continue (Reference Number 2005-40-133, dated August 2005). The overall objective of the
review was to assess the IRS’ progress in improving administration of the EITC Program since
FY 2002. This review was a followup audit to a report we issued in June 2003, in which we
reported that long-term performance goals and measures were needed, and fragmented
management reduced the effectiveness of efforts to improve administration of the EITC
Program. We made one recommendation to ensure that the Service Level Agreement process is
working as intended and the EITC Program is successful:
•   Recommendation 1 – To help ensure the Service Level Agreement process is working, the
    IRS should closely analyze the results of the Service Level Agreement currently in operation
    to ensure all functions are working within the agreements reached. If the Director, EITC,
    determines the desired results are not being achieved, the Director should consider elevating
    the level of management that signs the Agreement.
Controls Can Be Improved to Ensure Advance Earned Income Credit Reported on Individual
Income Tax Returns Is Accurate (Reference Number 2006-40-103, dated July 2006). The
overall objective of the review was to determine whether processing controls for individual tax
returns ensured 1) AEIC payments reported by taxpayers were not greater than the maximum
allowed by law, and 2) AEIC payments reported by an employer on a Form W-2 reconciled to
the AEIC payments reported by the taxpayer on his or her individual income tax return. The
AEIC Program was designed to provide taxpayers with a portion of their EITC throughout the
year. Because the AEIC is an advance payment of the EITC, it is imperative that taxpayers
report the actual amount of AEIC payments received during the year on their tax returns,
regardless of whether that amount exceeds the legal limitation. We made two recommendations
to improve administration of the AEIC:
•   Recommendation 1 – The IRS should consider adding additional AEIC criteria to the current
    error code programming to improve the IRS’ ability to identify AEIC payment reporting
    errors. For example, consider adding criteria such as income limits and/or whether the
    taxpayer has a qualifying child, in addition to the current AEIC payment dollar limit, to
    better identify errors.


                                                                                             Page 26
                 The Earned Income Tax Credit Program Has Made Advances;
                 However, Alternatives to Traditional Compliance Methods Are
                   Needed to Stop Billions of Dollars in Erroneous Payments



•   Recommendation 2 – The IRS should reemphasize current review procedures for paper
    returns and consider developing additional procedures for electronic returns to ensure AEIC
    payments reported are not the result of an input error made when entering Form W-2
    information.




                                                                                        Page 27
                The Earned Income Tax Credit Program Has Made Advances;
                However, Alternatives to Traditional Compliance Methods Are
                  Needed to Stop Billions of Dollars in Erroneous Payments



National Taxpayer Advocate – The head of the Taxpayer Advocate Service. The Taxpayer
Advocate Service serves as an advocate for taxpayers who need assistance resolving tax matters
with the IRS.
Pre-Refund Concept of Operations – An agency-wide vision for improving the IRS’ ability to
identify and stop erroneous tax payments before the payments are made to taxpayers.
Putative Father – A person who is generally assumed to be the father of the child but for whom
paternity has not been proven.
Taxpayer Assistance Center – An IRS office with employees who answer questions, provide
assistance, and resolve account-related issues for taxpayers face to face.




                                                                                       Page 29
    The Earned Income Tax Credit Program Has Made Advances;
    However, Alternatives to Traditional Compliance Methods Are
      Needed to Stop Billions of Dollars in Erroneous Payments



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 30
The Earned Income Tax Credit Program Has Made Advances;
However, Alternatives to Traditional Compliance Methods Are
  Needed to Stop Billions of Dollars in Erroneous Payments




                                                       Page 31
The Earned Income Tax Credit Program Has Made Advances;
However, Alternatives to Traditional Compliance Methods Are
  Needed to Stop Billions of Dollars in Erroneous Payments




                                                       Page 32
The Earned Income Tax Credit Program Has Made Advances;
However, Alternatives to Traditional Compliance Methods Are
  Needed to Stop Billions of Dollars in Erroneous Payments




                                                       Page 33
